Nos. 19-267, 19-348
INTHE

$Upreme ~ourt of tbe Wniteb $tates
OUR LADY OF GUADALUPE SCHOOL,

Petitioner,
V.
AGNES DEIRDRE MORRISSEY-BERRU,

Respondent.
ST. JAMES SCHOOL,

Petitioner,
v.
DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF THE
ESTATE OF KRISTEN BIEL,

Respondent.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief of Amici Curiae Church of God in Christ, Inc. and Union of Orthodox
Jewish Congregations of America in Support of Petitioners contains 5,708 words and
complies with the word limitation established by Rule 33.l(g)(x) of the Rules of this
Court.
Dated: September 27, 2019

~-t&=
;Thomas H. Dupree Jr.

